<html>
<title> - MASSACRE AT CAMP ASHRAF: IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                       MASSACRE AT CAMP ASHRAF: 
                      IMPLICATIONS FOR U.S. POLICY 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-52

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-306 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michael Mukasey (former Attorney General of the 
  United States).................................................     8
Colonel Wes Martin, USA (retired) (former Base Commander of Camp 
  Ashraf)........................................................    15
Gary Morsch, M.D. (former Commander of Forward Operation Base 
  Ashraf)........................................................    20
Mr. Ray Takeyh, senior fellow for Middle Eastern Studies, Council 
  on Foreign Relations...........................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michael Mukasey: Prepared statement................    11
Colonel Wes Martin, USA (retired): Prepared statement............    17
Gary Morsch, M.D.: Prepared statement............................    22
Mr. Ray Takeyh: Prepared statement...............................    30

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Colonel Wes Martin, USA (retired): Material submitted for the 
  record.........................................................    56
Gary Morsch, M.D.: Material submitted for the record.............    57


                       MASSACRE AT CAMP ASHRAF: 
                      IMPLICATIONS FOR U.S. POLICY

                              ----------                              


                         THURSDAY, JULY 7, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:22 p.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call this hearing of the Oversight and 
Investigations Subcommittee of the House Foreign Affairs 
Committee to order.
    I will be having opening remarks. We will then have short 
opening remarks from members of the committee, and then we will 
go to our panel of witnesses.
    I am Congressman Dana Rohrabacher. I welcome you to this 
hearing.
    As we move from the briefing on the April attack, it should 
be noted that Camp Ashraf has for more than 20 years been the 
home of 3,400 members of the Mujahedin-e-Khalq (MEK), a key 
opposition group working against the radical Islamic Iranian 
dictatorship. Re that, the 3,400 residents of Camp Ashraf are 
declared enemies of the Mullah dictatorship in Iran, which is a 
very significant fact to keep in mind when paying attention to 
try to figure out what is going on.
    Camp Ashraf residents were promised protection under the 
Fourth Geneva Convention by senior U.S. commanders in the 
aftermath of the liberation of Iraq as we kicked out Saddam 
Hussein. Sovereignty was turned over to the Baghdad government 
in 2004 and, with it, the transfer of responsibility for Camp 
Ashraf.
    When our congressional delegation discussed the situation 
with Iraq's Prime Minister Maliki in Baghdad last month, his 
authority to govern and the sovereignty of the people of Iraq 
over their territory was not an issue. We in no way quarreled 
with that. How the Iraqi Government exercises its authority, 
however, is a matter of grave concern. The use of excessive 
force--murder, massacres, and other such tactics is 
illegitimate on the face of it.
    What happened on April 8 was an excessive use of force. It 
was an illegitimate use of power on its face. Using troops and 
armored vehicles against unarmed civilians conjures up memories 
of Tiananmen Square in Communist China, not the kind of 
democratic rule that Americans have fought so long and hard, 
that we have dedicated such of our own blood and treasure to 
try to create a more democratic society. It certainly isn't 
reflected in what happened at Camp Ashraf on April 8.
    The wholesale murder of unarmed refugees simply cannot be 
ignored.
    After the attack, the State Department asserted that the 
``crisis and loss of life was initiated by the Government of 
Iraq and the Iraqi military.'' But what about before the 
attack? Was the U.S. Embassy or the commander of U.S. forces in 
Iraq notified of the Iraqi military build-up outside the camp 
or of their intentions? Was the Iraqi Government contacted? Did 
they contact us? If so, what was the response? What response 
did we give them? And what was the Iraqi response if we 
questioned them? Why was a United States unit, deployed at Camp 
Ashraf, ordered away just hours before the attack?
    We would like to ask the State Department these questions. 
We would like them to have had a witness here, an official that 
could have talked to us about this and been on the record in 
answering these important questions. But we were told that no 
one was available to testify today at this hearing. How 
convenient.
    This stonewalling can only go so far before it becomes a 
cover-up. And, yes, illegalities not just of the Iraqi military 
who murdered civilians, who committed a massacre, but of the 
acquiescence by the United States and the United States 
officials in this crime are part of the story. Covering up 
wrongdoing is itself illegal.
    A second issue of concern is whether the Maliki government 
acted in concert with the Iranian dictatorship. Prime Minister 
Maliki's political party is based on support from the Shiite 
community of Iraq; and, of course, the Shiite community of Iraq 
has, in some kind, a mutual relationship with the Shiite Mullah 
dictatorship in Tehran. Maliki's majority in the Parliament 
depends on the political block that is controlled by Mr. Al-
Sadr, an open agent of Tehran and whose Mahdi militia has often 
clashed with U.S. forces.
    Is the Camp Ashraf massacre a signal of even a larger 
problem? Is this something that has resulted in the fact that 
we are seeing a willingness on the part of the Government of 
Iraq, of Prime Minister Maliki and his majority, to do the 
bidding of the Mullah dictatorship next door?
    Well, if something like that is happening and this is the 
reason why Iraqi military forces felt compelled to go into Camp 
Ashraf and massacre its residents, maybe this calls into 
question the entire purpose of America's involvement in Iraq to 
begin with. Has America spent its blood and treasure only to 
allow a government to come to power in Baghdad that is a puppet 
of the Iranian Mullah dictatorship?
    In 1997, Iran and the State Department persuaded the 
Clinton administration to put the MEK on the foreign terrorist 
organization list. This naive gesture was supposed to improve 
relations, but we know that relations did not improve with 
Tehran because Tehran continued to support violence and 
terrorism across the region and crush dissidents at home and 
develop nuclear weapons.
    So certainly putting the people of Camp Ashraf on the 
terrorist list certainly didn't do any good, even if it was 
dishonest in its intent to begin with. The MEK, however, 
remains on the terrorist list, even though it is clear the 
Mullahs didn't start coming around and becoming more, how you 
say, acceptable in their behavior.
    The United Kingdom and the European Union have removed the 
MEK from the terrorist list. So we should quit playing games 
and also remove the MEK from the terrorist list before it 
results in another massacre, which is one thing that needs to 
be answered: Did the fact that the United States Government 
maintain the MEK on a terrorist list in any way contribute to 
the string of decisions that led to the massacre of 34 innocent 
people as well as the wounding of hundreds more?
    Now we have much to learn today. What really happened on 
April 8th? Can we continue to protect Camp Ashraf? What is the 
solution? Should the residents be relocated to safe areas 
outside of Iraq? What is the solution?
    That is an interesting question for us to talk about today 
as well. I would be interested in hearing suggestions from the 
panel that we are about to hear from.
    And one last point before we turn it over to Congressman 
Carnahan for his opening statement.
    I believe I read in a paper that 34 people were killed just 
a day or two ago from bombs that went off in Iraq. And it is 
very easy to think that those 34 people--well, people are still 
being killed. Why are we concerned about Camp Ashraf when you 
have other people being killed in these terrorist attacks?
    Well, let me note, it is not equal when a terrorist plants 
a bomb and kills innocent people. It is not equal to when a 
government, exercising its sovereign authority, decides in a 
willful way to massacre people and kill them, even though the 
numbers are the same. A government is expected to be 
responsible and to act legally and lawfully. A terrorist group, 
you will expect them to be the dregs of society and of the 
Earth.
    Let us hope that the Maliki government understands that 
there is a difference between terrorist activities which are 
unacceptable and the activities of this government which are 
totally inconsistent with law and civilization. So for 
government troops to be openly killing people, as we just saw, 
is unacceptable anywhere in the civilized world, and that is a 
lot different than a terrorist attack. So we have a moral 
obligation today as people to call people to task and to find 
out exactly what happened.
    Mr. Carnahan, do you have an opening statement?
    Mr. Carnahan. Yes, I do; and I want to thank you, Mr. 
Chairman, for this hearing today and for shining a bright light 
on this issue, also for leading our delegation recently to Iraq 
to meet with Prime Minister Maliki and officials there as well 
as our own U.S. Government officials to really help get to the 
bottom of this issue. Thank you.
    Mr. Rohrabacher. Thank you very much.
    I would ask Congressman Poe to take over the chair. I have 
been called to the floor. I have an amendment on the floor that 
I have to take care of. I will be returning very shortly as 
soon as we do business.
    Mr. Poe, could you take over the chair? And I am sure you 
have an opening statement as well.
    Mr. Carnahan. Thank you again, Mr. Chairman; and I also 
want to recognize my colleague, Mr. Poe from Texas, who is also 
in our delegation, for his commitment on this issue as well.
    In light of recent events, our trip to Iraq and the 
scheduled departure of U.S. military this December, this 
hearing is especially timely for us to assess not only the 
humanitarian situation at Camp Ashraf but also to consider the 
broader issues of U.S.-Iraq policy.
    I would also like to note that several Missourians are here 
today, including Mrs. Azam Shahriary--we are happy to have you 
here--whose son is currently at Camp Ashraf. I want to thank 
you all for being here and for your insight on these issues.
    The history of MEK and Camp Ashraf is one that dates back 
several decades. During our trip to Iraq last month, we met 
with numerous people regarding the slaughter at Camp Ashraf on 
April 8. Not surprisingly, we heard a lot of different and 
conflicting stories. What is not in dispute is that over 30 
Camp Ashraf residents were killed, over 300 wounded by Iraqi 
security forces.
    These killings have been widely condemned, and I concur. In 
the week following the killings, the U.N. High Commissioner for 
Human Rights called for ``a full, independent, and transparent 
inquiry'' and further added ``any person found responsible for 
the use of excessive force should be prosecuted.'' Again, I 
concur. A full, fair, and independent investigation will 
provide for the best means of finding a final determination of 
what happened and will allow anyone found responsible to be 
brought to justice and help prevent future attacks. I look 
forward to hearing the insights of the witnesses here today 
regarding the human rights abuses but also how we protect from 
future abuses.
    In 2003, the residents of Camp Ashraf had protected status 
under the Geneva Convention; and pursuant to the statuses of 
forces agreement between the U.S. and Iraqi Governments, 
jurisdiction of the camp has been under Iraqi jurisdiction 
since 2009. With the draw-down of U.S. forces in Iraq, I 
believe that the U.N. or another independent body be given 
access to the camp to assess the humanitarian situation there.
    I would also like to have the panel address the issues with 
regard to relocation of the residents. Is that an option or is 
it not? And also to look at the broader implications to U.S. 
policy as we shift from military to a State Department-led 
effort, focusing on diplomacy and development.
    With that, I am going to submit the balance of my opening 
for the record so we can shift our time for the witnesses.
    Mr. Chairman, I yield back.
    Mr. Poe [presiding]. I appreciate the ranking member's 
comments.
    Likewise, I was with Chairman Rohrabacher and the ranking 
member on our trip to Iraq on June 11. We did visit with 
Maliki, discussed many issues with him, and one of those issues 
was we wanted to go to Camp Ashraf and get the residents' side 
of what happened to them and the camp in April.
    After almost 2 hours of talking and a lot of talk--as the 
statement has sometimes been said, when all is said and done, 
more is said than done--we were not allowed to go to Camp 
Ashraf. He was adamant about that, and we respected his 
decision since he was in charge of the nation.
    But my question then and now is still the same: Why not? 
What did Maliki have to hide? If he was right about his 
position--and he articulated his position I thought quite 
well--why couldn't he be open-minded enough to let us get the 
viewpoint from the residents that live in Camp Ashraf? And he 
denied us that access to those people. So, it seems to me, he 
had plenty to hide, is the reason we weren't allowed to go to 
Camp Ashraf and hear from the residents.
    When the Iraqi soldiers stormed Camp Ashraf on April 8, 
fired at the residents, and ran them over with American 
Humvees, 36 were killed, including women and children. It was a 
human rights atrocity. And the U.S., with thousands of troops 
still fighting for peace in Iraq, has done little more than 
issue just a statement, has not conducted its own 
investigation, hasn't asked the U.N. to investigate, and there 
is no point in the Iraqi Government investigating the attack 
because they are the ones who ordered the attack. They 
certainly are going to find no fault with the action of their 
own military.
    A week after the attack, a letter with 18 Members of the 
House to Secretary Clinton and Secretary Gates asked them to 
shed some light on this violent attack. It is now July. To 
date, there is blissful silence from the administration and 
have given us no answer for this inhumane attack of Iraq on the 
people of Iraq. I guess they are too busy bombing Libya in the 
name of humanity to get back with us.
    Instead, the administration has proposed a new relocation 
plan for the camp. They want to move the camp to some other 
location within Iraq. This is the same plan the Iranians 
themselves proposed years ago.
    We have heard how dangerous this would be to the residents 
of the camp. In May, I sent a letter to Secretary Clinton 
opposing this misguided plan. Camp Ashraf is recognized around 
the world as a refuge for those who oppose the Iranian regime; 
and if we move it within Iraq, they will lose that public 
recognition, while leaving residents under the same control of 
the army.
    There is something directly under our control that we can 
do, and that is we can take the MEK off the foreign terrorist 
organization list. One of the obstacles in moving Camp Ashraf 
to a peaceful third country is that they are still designated 
as terrorists by the United States.
    I have introduced bipartisan legislation, H.Res. 60, that 
urges the Secretary of State to take the MEK off the foreign 
terrorist organization list. I have seen and been in all the 
classified briefings that I know of regarding the MEK, and I am 
not convinced that they should remain on the list.
    The State Department has not made their case to keep them 
on the list. Therefore, they should be removed. The MEK should 
not be used as a political tool to appease any dictators in the 
world. Eighty-three of my colleagues agree with me.
    As a Nation, we promised to protect these Iranian 
individuals. No matter what we think of the MEK, we should all 
agree that no group, especially one that has given up terrorism 
and given up all of its weapons, deserves to have its human 
rights trampled on by Iraq or Iran or anyone else.
    We have given Iraq a democracy and freedom. It is time they 
start acting like they deserve it and provide safety for Camp 
Ashraf residents and the MEK.
    And I will yield to the gentleman, Mr. Filner, for his 
opening statement.
    Mr. Filner. Thank you, Mr. Chairman.
    I would like a unanimous consent agreement that I be 
allowed to officially sit here as a member of the committee.
    Mr. Poe. Without objection.
    Mr. Filner. Thank you, Mr. Chairman.
    I appreciate your courage and activism on this issue, also.
    I was reading the testimony, Mr. Chairman, of our panelists 
in advance, just to be prepared. I noticed one of the panelists 
spends his whole time discrediting or trying to discredit the 
MEK, almost as if to justify the massacre that occurred at Camp 
Ashraf. I wish he had spent as much time undermining the regime 
of Iran. We would be better off.
    I don't know about you, Mr. Chairman, but I have tried to 
look at the resistance going on inside Iran--and the MEK, and 
its leader, has come up with, it seems to me, the one 
legitimate policy that is best for us as Americans. They call 
it the ``third way.'' That means we do not invade Iran, but we 
do not appease the existing Mullahs. We get out of the way and 
let the internal resistance do what it can and should and wants 
to. The listing of the MEK as a terrorist organization is 
getting in the way. So we ought to delist. And there are lots 
of reasons, as you pointed out, why we should.
    I was recently at a rally in Paris and Judge Mukasey was 
there--where the first Homeland Security secretary 
unequivocally said that the MEK is not a terrorist 
organization. Nothing crossed his desk as the Secretary of 
Homeland Security that indicated that in the years that he was 
in that position. So I think we ought to look seriously at 
this. And, besides, it is not even an issue. It should be for 
us whether, whatever the ideology is--and we can talk about 
that. There was a massacre. We should have prevented it. We 
have a legal obligation to have prevented it. We should have 
done it. We should do it in the future. I can't worry about 
ideology when there are human rights violations going on, 
although I think it is a, if I may say, a red herring.
    So I appreciate your efforts, Mr. Rohrabacher's efforts, 
Mr. Carnahan's efforts to make America more aware of this. This 
is going to hit us, Mr. Poe--I think you know--as the American 
pullout occurs of Iraq, after all our treasure of money and men 
and women who have died and been injured there, do we want the 
Iranians to take over? And yet that is a potential. Ashraf is a 
symbol of what I think we need to prevent. After all this 
intervention in Iraq in the decade, the Iranians come in. The 
MEK favors a nonnuclear, democratic, secular regime. I think 
that is something we can all agree to. I look forward to the 
testimony.
    Thank you, Mr. Poe.
    Mr. Poe. Does the gentlelady from Texas have a brief 
opening statement?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for your courtesy.
    Let me acknowledge the witnesses, and I get a special 
opportunity to acknowledge General Mukasey. We were together 
before, and I didn't have the opportunity to do so.
    I do want to acknowledge as well, Mr. Chairman, receiving a 
letter to my letter that I had written regarding the 
involvement of the United States in this effort to resolve this 
terrible crisis, and I do think it should be acknowledged. And 
that is a letter from Joseph McManus, who wrote on behalf of 
the State Department of the United States interests.
    So let me just say that nowhere should we tolerate the 
heinousness of the attack on the residents of Camp Ashraf; and 
no matter how deep the friendship is or the recovering history 
of Iraq, it should not be tolerated. And, as well, we should 
not allow Iran to dominate and to violently infuse into the 
response to Camp Ashraf actions that they would carry out 
themselves. And if the actions were carried out by the military 
in Iraq, they are as culpable as those who have either 
instructed or created the atmosphere.
    So I hope, as we find a solution, that it will be a 
solution where we demand of the head of Government of Iraq to 
cease and desist and to collaborate and cooperate a safe 
passage for those in the camp, medical care. And the extreme 
violation of human rights, civil rights should be completely 
denounced.
    But, more importantly, the world organizations, including 
the United Nations, should immediately denounce this behavior; 
and Iraq should pay a penalty in the world forum for the 
treatment not only of those in Camp Ashraf but the many 
citizens of their own who are in diverse backgrounds.
    So I thank you for holding this hearing, Mr. Chairman. It 
is frustrating to come back time after time with continuous 
violence and no response by Iraq.
    And I hope if the Ambassador of Iraq--I don't see that 
person as a witness on this august body--but if the Ambassador 
of Iraq can hear my voice, he needs to come to Congress. He 
owes this Congress an apology. He owes this country an 
explanation as to why he is, in essence, violating the civil 
rights of a minority group in his country when we fought and 
shed blood so that Iraqis might live free. He owes both an 
apology to the people in Camp Ashraf, to the people of Iraq who 
will suffer as well because they are diverse, and he owes an 
apology and explanation to the world family and particularly 
the United States of America for the treasure that we lost, 
attempting to provide democracy there.
    I yield back, Mr. Chairman.
    Mr. Poe. I will introduce the panel members.
    I do want to introduce and recognize the numerous families 
of residents who are in Camp Ashraf who are here. There are a 
lot from my home State of Texas. I am glad to have those 
individuals here.
    Michael Mukasey served as Attorney General of the United 
States from 2007 to 2009. Prior to joining the George Bush 
administration, he had served for 18 years as a Federal judge. 
He was appointed to the U.S. District Court by Ronald Reagan in 
1988, served there until 2006, and is a graduate of Columbia 
University and Yale Law School. He worked as an Assistant 
United States Attorney in New York from 1972 through 1996, 
serving as chief of the district's official corruption unit 
from '75 through '76.
    Judge, we welcome you today.
    Retired Army Colonel Wes Martin is our second panelist. He 
retired from active duty in 2010. In combat, he served as the 
senior antiterrorism force protection officer for all coalition 
forces in Iraq during Operation Iraqi Freedom I and II, as J-3 
operations officer for Task Force 134, which was detention 
operations, and as commander of Forward Operation Base Ashraf. 
He then served three tours in the Pentagon. He holds two 
master's degrees and is currently a member of the technical 
staff at the Department of Energy Sandia National Laboratories.
    Our third panelist is Dr. Gary Morsch. He is the founder 
and president of Heart to Heart International, a global 
humanitarian organization. Dr. Morsch continues to practice 
family and emergency medicine and does it through Docs Who 
Care, a medical staffing company he founded. Dr. Morsch is a 
member of Army Reserve with the rank of colonel and has been 
deployed to Kosovo and to Germany as well as to Iraq where he 
ran a hospital at Camp Ashraf.
    Dr. Ray Takeyh is a Senior Fellow for Middle Eastern 
Studies at the Council on Foreign Relations, adjunct professor 
for the Center for Peace and Security Studies at Georgetown 
University. He has a Ph.D. From Oxford University and has 
served as special advisor for the Gulf and Southwest Asia at 
the U.S. Department of State. He is also the author of the 
Guardians of the Revolution, Iran's approach to the world, 
which was published in 2009 by Oxford University Press.
    Thank you, gentlemen, for being here today.
    Judge Mukasey, we will hear from you first. There is a 5-
minute time limit on each of your comments. So if you want to 
go longer than that, you can submit it to the record.
    So, first, Judge Mukasey.

  STATEMENT OF THE HONORABLE MICHAEL MUKASEY (FORMER ATTORNEY 
                 GENERAL OF THE UNITED STATES)

    Mr. Mukasey. Thank you.
    I want to thank the chairman, Ranking Member Carnahan, 
Judge Poe, Representative Filner, and Representative Jackson 
Lee for allowing me to testify at this important hearing on the 
events in Camp Ashraf in April of this year that involved the 
murder of some 36 innocents by Iraqi forces using weapons and 
vehicles that were actually supplied to them by the United 
States.
    I have submitted seven pages of written testimony, making 
several recommendations of what I would hope this committee 
would do and could do to try to determine how this massacre 
came to be and what can be done to prevent conditions at Ashraf 
from deteriorating even further, and I thank the subcommittee 
for making those a part of the record. But I know that the 
chair of this committee and others have had direct experience 
with the Iraqi Government insofar as Ashraf is concerned and 
know a great deal more about that subject than I do. So I want 
to focus my oral testimony today on what the United States has 
done in the past, some of which has helped but some of which 
has hurt, and what it can do in the future to prevent people 
from being murdered.
    Because, make no mistake about it, what we are talking 
about here literally is a matter of life and death. Back in 
2003 when the multinational force went into Iraq, the residents 
of Ashraf surrendered the weapons they could have used to 
defend themselves and put themselves in the hands of the 
multinational force and principally the hands of American 
forces. They received a written guarantee from an American 
general that I attached to my written testimony that they would 
be treated as protected persons under the Fourth Geneva 
Convention.
    In 2009, General Petraeus signed off on the Iraqi 
Government's assumption of control over the entirety of the 
country, including the vicinity of Ashraf, only after he got 
written and oral assurances that the people living in Ashraf 
would be protected by Iraqi forces. And, as we know, those 
assurances have been violated repeatedly, with the results that 
we have seen here today.
    I should mention that at both times, both in July 2009 and 
in April 2011, when these attacks took place, our Secretary of 
Defense was in country. It would be hard to imagine a more 
calculated slap at this country than that.
    And when you think about the terrible price that we have 
paid to liberate Iraq, the lengths to which we have gone to 
oppose the Iranian Government, when you think of the opposition 
to the Iranian Government in the Gulf and elsewhere and the 
strategic defeat that Iran suffered when it overreached in 
Bahrain, you wonder what has made Iran and Iraq so bold as to 
act in this way.
    Well, I would suggest to you that what enables them and 
what emboldens them is, as the chairman suggested, that the 
United States and particularly the State Department has kept 
the MEK on a list of foreign terrorist organizations, something 
the European Union and the U.K. have long since stopped doing, 
and thereby legitimized the behavior of both Iraq and Iran.
    The State Department seems infected with the idea that it 
must not do anything that might displease the Iranians, even 
when doing so in fact would give the United States more 
leverage against the Iranians, not less. So we have the 
spectacle last week of the United States diplomat, our 
Ambassador to Iraq, saying in one breath that Iran is, in fact, 
sending IEDs into Iraq that are used to kill Americans but 
saying in the next breath that MEK members should agree to 
disband in order to facilitate the resettlement of the 
residents of Ashraf. In other words, he is saying that a 
principled, organized group that defines itself in large 
measure by opposition to the tyrannical regime in Iran should 
cease to be a group and should give up its identity in the 
ridiculous hope that when the Iranians and the Iraqis can pick 
them off one at a time that they will somehow be safer and not 
less safe when that happens.
    The MEK, as many of you know, went to court to get this 
unjustified designation removed. The DC Circuit Court of 
Appeals told the State Department that they had not presented 
evidence that MEK has committed violence in the last 10 years 
or has the ability or the inclination to do so now, and it 
directed the State Department in September 2010 to review and 
to reconsider that designation. That was almost a year ago, and 
all the State Department has done in that time is to come 
forward with documents that do not deal with any issue relevant 
to the designation and to ask MEK questions which it has 
answered that are not relevant to the designation.
    It is long since time for the State Department to stop this 
policy of delay which simply emboldens murderers. I urge the 
committee to hold a hearing at which the State Department is 
required to justify its policy or to change it and at which 
this committee inquires also into what our Government is doing 
to enforce the Leahy amendment that bars both military and 
civilian aid from this country to military units like the Iraqi 
units that murdered Ashraf residents. If you ask tough 
questions, perhaps we will get answers that we and the 
residents of Ashraf can live with.
    I thank you very much for your attention and for hearing 
me.
    [The prepared statement of Mr. Mukasey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you Judge Mukasey.
    Colonel Martin.

  STATEMENT OF COLONEL WES MARTIN, USA (RETIRED) (FORMER BASE 
                   COMMANDER OF CAMP ASHRAF)

    Colonel Martin. Thank you, Mr. Chairman, ranking member, 
for this opportunity to speak before the committee.
    Mr. Chairman, I would also like to introduce the Courting 
Disaster. It is the rebuttal to the RAND report on the MEK, 
sir.
    Mr. Poe. Without objection.
    Colonel Martin. Thank you, sir.
    As the first antiterrorism officer for all of Iraq, the 
operations officer for Task Force 134, detention operations, 
and the base commander for Ashraf----
    Mr. Filner. Colonel, can you just speak more directly into 
the mic?
    Mr. Poe. And talk a little slower, if you would. Some of us 
are from the South. We talk slower.
    Colonel Martin. Hopefully, I will make, for the ranking 
member, my northeast Missouri State education put to good use.
    As the antiterrorism force protection officer for all of 
Iraq and as the J-3 for detention operations and the base 
commander of Camp Ashraf, I would like to make one point up 
front. The MEK is not a terrorist organization.
    In 2003, as the United States finalized its invasion plans, 
the Iranian Government set to work how to quietly take over as 
much of Iraq as possible. Today, the Iranian influence expanded 
itself over the southern provinces throughout Baghdad and into 
Diyala province where Camp Ashraf and the MEK is now located.
    Iran's growing influence in the region is in keeping with 
Ayatollah Khomeini's statement: The road to Jerusalem is 
through Karbala. As the Maliki and Ahmadinijad governments grow 
closer, the situation of the MEK becomes more critical, as 
evidenced in the filmed footage of July 2009 and April 2011. In 
these videos, we observe Maliki's forces using U.S.-supplied 
vehicles and equipment to run down and shoot defenseless 
people. We witnessed the courage of the residents of Ashraf. 
Despite knowing they may be the next to die, they rush to the 
rescue of their fallen comrades. Courage under fire is a 
remarkable trait. Killing unarmed people is murder. Yet the 
U.S. State Department has done nothing of substance to address 
these attacks or the entire Ashraf situation.
    As for the State Department, the action officer provided to 
handle Camp Ashraf issues during my tenure was a never-ending 
story of embarrassment and prejudice. Her visits were 
disastrous. Her continual rumors and misinformation resulted in 
my frequent unannounced and unfounded inspections into MEK 
compounds. Despite warnings to all of us from the commanding 
general of Task Force 134 not to provide the untrustworthy 
Iraqi National Security Advisor Rubaie information, she 
continued to do so. In turn Rubaie would pass it on to the 
Iranian Government. Within a couple of weeks I would then 
receive the information from the MEK. Upon my return to the 
Pentagon I assisted State Department officials addressing the 
MEK issue. This included providing a translated letter from Mr. 
Zebari, head of the Kurdistan Democrat Party International 
Relations, stating MEK did not attack the Kurds. Mr. Zebari 
subsequently confirmed the letter to be true, yet several 
months later when the annual report on terrorism was released 
by the State Department the accusation for attacking the Kurds 
remained. Upon my questioning the same State Department 
officials about this, I was informed they don't communicate 
with people who put out the annual report.
    One perpetual rumor worthy of specific address concerns 
members of the MEK being held against their will. I was able to 
validate through specific occurrences anyone wishing to leave 
has that choice.
    The real benefactor of the fall of the Mujahedin will be 
Ahmadinejad and the ruling religious fundamentalists. The 
fundamentalists of the Iranian Government has always wanted the 
MEK to be turned over to them. If it happens, executions will 
be conducted to remind Iranian citizens of what happens to 
people who oppose the government to break the spirit of anyone 
considering resistance and to show the world what happens to 
those who trust their lives to the United States.
    The MEK surrendered to the United States military without 
firing a shot, turned over all their weapons, accepted 
consolidation at Camp Ashraf, renounced terrorism, accepted 
protected person status under the 4th Geneva Convention, 
provided the free world with crucial intelligence to include 
Iran's development of a nuclear weapons program and fulfilled 
every limitation and requirement placed on them. Yet when the 
United States could no longer figure out what do with the MEK, 
the protected person status was revoked and the organization 
was turned over to the Iraqi Government. There are protocols 
and expectations to surrender. The MEK has fulfilled their end, 
the United States comes up very short. The price of that is now 
being paid by the residents of Camp Ashraf.
    Thank you, sir.
    [The prepared statement of Colonel Martin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you. Dr. Gary Morsch, 5 minutes.

  STATEMENT OF GARY MORSCH, M.D. (FORMER COMMANDER OF FORWARD 
                     OPERATION BASE ASHRAF)

    Dr. Morsch. Thank you, Mr. Chairman and ranking member and 
members of the subcommittee. Mr. Chairman, before I begin my--
--
    Mr. Poe. Is your microphone on?
    Dr. Morsch. Yes, it is on now. Thank you for this 
opportunity, Mr. Chairman.
    Before I begin my remarks with your permission I would like 
to submit for the record a letter from General James Gardner, 
Commanding General of MMNF-I to MEK Secretary General, dated 
February 16th, 2006.
    Mr. Poe. Without objection, it will be part of the record.
    Dr. Morsch. I would like to also submit a statement by the 
U.S. Central Commander on the full disarmament of the MEK. This 
statement was released in 2003.
    Mr. Poe. Without objection, it will also be part of the 
record.
    Dr. Morsch. Lastly, I would like to provide the written 
submission of Mr. Stephen Schneebaum, an international human 
rights law scholar, who has written on the rights of the 
residents of Ashraf and attached to this written submission are 
two legal opinions which he has also prepared on the subject.
    Mr. Poe. Without objection, it is admitted.
    Dr. Morsch. Thank you, Mr. Chairman.
    I have submitted a fairly extensive prepared statement that 
outlines my observations. These observations are based on my 
direct role as the lead physician assigned to Camp Ashraf in 
early 2004 where I lived and worked with the residents of 
Ashraf on a 24/7 basis.
    I arrived in Iraq knowing nothing about the MEK and left 
Ashraf with a great knowledge and insight into the 
organization, as great a knowledge or insight I believe as any 
other American or more so. Let me just say I know the MEK.
    Based on my observations I would like to express three 
simple conclusions, which I believe are indisputable. Number 
one, the MEK and Ashraf are not terrorists. In fact they are 
allies, friends and collaborators in our mission in Iraq and 
the Middle East. During my time in Ashraf they provided 
intelligence and recon so that our convoys knew where IEDs had 
been placed and could then avoid them. Even more importantly, 
the MEK worked with local and regional populations to advocate 
for their cooperation with the American mission.
    The MEK even organized town hall like meetings with area 
sheikhs, participating in roundtable discussions about 
democracy in Iraq. Does this sound like the activities of a 
terrorist organization? If so, I guess we could use a few more 
friendly terrorist organizations like this group. Of course 
they are not terrorists. The European Union does not consider 
them terrorists, the French don't, the United Kingdom don't. 
The U.S. is the only significant country that keeps them on the 
terrorist list. This must change and change immediately.
    Number two, when our military forces entered Iraq in 2003 
meetings were held between the MEK and U.S. Officials. The MEK 
agreed to give up all their weapons, and arms, and to fully 
cooperate with and support the mission and goals of the U.S. In 
return for their giving up their weapons of self defense, the 
U.S. promised to protect them. In fact, following an extensive 
investigation into all aspects of the MEK, including lengthy 
interviews of every resident of Ashraf, each resident of Ashraf 
was given a signed document guaranteeing their safety as 
protected persons under the 4th Geneva Convention, with the 
United States promising to ensure that protection.
    Ladies and gentlemen, the people of Ashraf have more than 
upheld their side of this agreement. We have not. U.S. forces 
have stood by, sometimes literally filming the assaults as they 
were happening without intervening. To date 47 members of 
Ashraf have been killed along with hundreds more wounded. Today 
the City of Ashraf is a city under siege, and unless something 
is done quickly and dramatically Ashraf will fall and thousands 
more will be killed in a great genocide.
    Number three, finally I have a specific recommendation on 
what the U.S. should do to keep its word and carry out the 
terms of the agreement that we made. Someone must take the 
responsibility for protecting Ashraf and must take this 
responsibility away from the Iraqis. Under the obvious 
influence of Iran, Iran and Iraq intend to exterminate the MEK. 
The status quo is not acceptable. We must intervene.
    Thank you very much.
    [The prepared statement of Dr. Morsch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. Thank you very much. Dr. Takeyh.

 STATEMENT OF MR. RAY TAKEYH, SENIOR FELLOW FOR MIDDLE EASTERN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Mr. Chairman, for inviting me. It is 
a privilege to be here with my copanelists. I have submitted 
testimony for the record. I will just highlight certain aspects 
of it.
    Mujahedin-e-Khalq, the MEK, was founded in early 1960s in 
Iran at a time of proliferation of various opposition groups 
again the Shah. It distinguished itself by the discursive 
nature of ideology that sought to mix a number of incompatible 
dogmas. From Shia Islam they appropriated symbols of martyrdom, 
from Marxism the notion of historic development of stages, from 
Lenin they embraced the importance of a vanguard party 
committed to mobilization of masses, and from Third World 
revolutionaries they took the primacy of gorilla warfare and 
violence as indispensable agents of political change.
    The core of MEK ideology historically has always been anti-
imperialism, which has often been defined as opposition to 
United States interests. They oppose the Shah's regime partly 
because of this close association with the United States. It is 
this impulse that propelled MEK in the 1970s toward embracing 
an entire spectrum of anti-American forces ranging from the 
Vietcong to PLO.
    Given this mission of liberating the working class and 
expunging the influence of predatory capitalism, the United 
States has traditionally been identified as a source of 
exploitation and abuse in MEK literature. Violence has been the 
hallmark of MEK's strategy for assuming power. Through much of 
its past the party exalted violence as a historic expression of 
dissent.
    One of the central precepts of the party is that a 
dedicated vanguard challenging the authority of the state can 
spark a mass revolution by bravely confronting that state. Once 
the masses observe that the state is vulnerable to violence 
then they will shed their inhibition and join the protest for 
sparking the revolution. Thus, the most suitable means of 
effecting political change has always been to some extent 
including violence.
    Although MEK victims have been mostly Iranians, there have 
been Americans and American installations also victims of MEK 
violence. In the early seventies the MEK Communique Number 3 
stressed that violence against the United States was 
permissible given America's suppression of legitimate 
revolutionary movements such as those in Palestine. The first 
such attack came in May 1972 on the occasion of President 
Richard Nixon's visit to Iran. To derail that visit, MEK bombed 
a U.S. Information Office and targeted an American company such 
as General Motors and Pan American Airways. That same year the 
party attempted to assassinate General Harold Price, the Chief 
of U.S. Military Mission in Iran. Although General Price 
escaped his assassins, the MEK did tragically succeed in 
murdering Colonel Lewis Hawkins, the Deputy Chief of Mission, 
outside his home.
    It must be stressed that thought the 1970s, the MEK did 
have support within Iran, particularly among the intelligentsia 
and the working class. This message of resistance and this 
record of resisting the Shah did attract substantial support.
    The turning point for MEK's internal fortunes in Iran seems 
to have been 1981, when the Islamic regime engaged in one the 
most brutal acts of repression, executing vast numbers of 
opposition members, including many MEK cadre. It is at that 
time that the organization's political infrastructure in Iran 
was largely subdued. However, a decision made by MEK personnel 
also ensured that the party would not reclaim its place of 
influence in Iran.
    As MEK went into exile its willingness to side with 
Saddam's Iraq against Iran in the Iran-Iraq war disturbed its 
already diminished cadre.
    During their 1983 meeting between Mr. Rajavi and Tariq 
Aziz, an alliance was forged. The MEK personnel fought along 
side of the Iraqis and were used in some of the most daring 
missions of the war. Given the highly nationalistic nature of 
the Iranian population, such act was viewed as a betrayal of 
homeland and not necessarily a legitimate act of opposition 
against an abhorrent regime.
    The MEK would go on to assist Saddam's regime, they were 
employed by him in the repression of the Sunni uprising--Shia 
uprising, I'm sorry, in 1991. Given that the Shia community is 
having a leading role in Iraq, that is indeed a disturbing 
legacy.
    The question then becomes what to do with MEK members in 
Camp Ashraf. It would be wrong, it would be immoral to 
forcefully repatriate inhabitants of the camp back to Iran. 
Given that the Islamic Republic lacks even the basic rudiments 
of impartial justice, they are likely to be met with certain 
death.
    Nonetheless, the international community under the auspices 
of United Nations Refugee Committee has an obligation to the 
members of the MEK currently at Camp Ashraf to ensure their 
safety and their security. The MEK cadre cannot be repatriated 
back to Iran, they cannot be returned to Iran, and they seem to 
have a difficulty staying in Iraq. It becomes a question for 
the international community and the United Nations to find a 
safe haven for the remaining members of the MEK currently in 
Camp Ashraf.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Takeyh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                              ----------                              

    Mr. Rohrabacher [presiding]. Thank you very much. This 
happens when you are a Member of Congress and you may be 
preparing for something for weeks and weeks and it happens at 
the exact same time you have something on the floor, a bill on 
the floor, that is your amendment on the floor, it happens to 
come together at exactly the same time. I think that that is 
God's way of just teaching us not to take everything for 
granted and to be grateful for the time when we do have 
together here.
    I am going to actually ask Mr. Filner, he was not a member 
of this committee, if he would like to have a few minutes of 
questions as I organize my thoughts. Mr. Filner has been very 
active and involved in this issue. Then I will turn to Mr. 
Rivera.
    Mr. Filner. Thank you, Mr. Chairman. And again thank you 
for your incredible personal interventions in these things. It 
really makes a difference in the world.
    What struck me from the testimony is those who have had 
such personal contact with Ashraf based on their own 
information, their own investigations, their own witnessing, 
their own talking to the people have come to the conclusion 
that we do not have a terrorist organization. I don't see any 
of us worried about all of these folks here, by the way, these 
violent people that are about to overthrow us, to have come to 
a conclusion that these are our allies. So I thank you for 
having the courage to do that.
    I was struck by, as I said earlier, by Dr. Takeyh's--is 
that the right pronunciation, sir, Takeyh?
    Mr. Takeyh. Yes.
    Mr. Filner. Testimony. Do you think there should have been 
a massacre given the horrible ideology of the MEK?
    Mr. Takeyh. No.
    Mr. Filner. Because you don't say that anywhere.
    Mr. Takeyh. I said report of violence of Ashraf members.
    Mr. Filner. The last so-called terrorist thing you 
indicated in your written statement is 1972. Let's say that is 
39 years ago, I don't see anything since then that would 
substantiate your claim of a terrorist organization. By the 
way, have you ever met this cult leader that you talk about 
here?
    Mr. Takeyh. No.
    Mr. Filner. I have on several occasions.
    Mr. Rohrabacher. I noticed that stare in your eyes after.
    Mr. Filner. I know, I have been brainwashed. I have met a 
lot of world leaders, I will tell you, I have not met someone I 
can say is as intelligent, as humorous, as humane, as concerned 
with other people around her and as humble as Ms. Rajavi. I 
mean, I just don't understand.
    In fact, when I last met with her it was raining in Paris 
and I said to her, ``You are a cult leader, can't you stop this 
rain here?'' She proceeded then to tell me that as the most 
powerful Member of Congress, I should be able to stop the rain. 
But clearly I never saw a cult leader act like that, by the 
way. She is a political leader, a very humane and humble 
person, a very intelligent person that obviously has the 
support. I don't know what group could have gathered 100,000 
people in one place to hear a former Attorney General speak to 
them, a former Secretary of Homeland Security, former Chief of 
Staff of President Bush, a couple of Congress Members.
    It strikes me that if our view of the world is that Iran is 
one of the most troubling, to say the least, actors on the 
planet and they are heading toward an atomic bomb and they are 
heading toward maybe a takeover of Iraq, at least in political 
terms, we should be doing everything we can to stop that, 
barring the use right now of American forces. Yet you want to 
discredit one of resistance groups. You say how unimportant 
they are. Well, if they are so unimportant, why worry about 
them?
    We should be helping everybody, seems to me. The MEK has 
shown with its leadership and very structured program for the 
United States it is in our interest, it seems to me, to adopt 
that program and with its ability to organize vast 
demonstrations, and I think these gentleman here would concur 
that they gave us very important intelligence on the Iranian 
nuclear capabilities and progress. It seems to me, I mean I 
don't care what religion they are, what ideology they have, 
they could even be Republicans as far as I am concerned, these 
are our friends, these are our friends and we should----
    Mr. Poe. Some of them are Republicans.
    Mr. Filner. We should be getting out of their way and 
delist them and just let them do what they can. If they are so 
unimportant and so lacking of support so that will be proved in 
history, but why are we helping the Iranian regime by not 
helping the MEK? And that is just the way it is.
    Mr. Rohrabacher. Well, thank you very much.
    Mr. Filner. Dr. Takeyh, I don't know if you want to 
respond.
    Mr. Rohrabacher. We are going to give you time to answer 
that.
    Mr. Filner. Before you throw your credentials, I am a Ph.D. 
Also.
    Mr. Takeyh. That disqualifies us both. I do think we should 
assist the opposition movements within Iran in order to deal 
with the regime whose characterizations I don't dispute. There 
is an opposition movement against Iran. It is called the Green 
Movement. It features dissident clerks, it features liberal 
elements, it features intelligentsia, it features middle class 
elements, and the groups that you are supporting, Congressman, 
has limited if not any support in Iran. That is just a fact.
    Mr. Filner. So what----
    Mr. Takeyh. And it has----
    Mr. Filner. I don't agree, but even if you are right, so 
what? What does that mean we shouldn't help them because they 
have zero? So they will be proved and if there is an overthrow 
of the Mullahs we will see who comes out as the thing, so what?
    Mr. Takeyh. I think we share concern of Iranian human 
rights.
    Mr. Filner. I am not asking for millions of dollars, I am 
just saying delist them.
    Mr. Takeyh. You can have a hearing on a delisting. What I 
can say to you is this is an organization with a very 
discursive ideology, and with very peculiarities and also 
violence.
    Mr. Filner. So what?
    Mr. Rohrabacher. I would suggest that we let the witness 
answer the question.
    Mr. Filner. So irrelevant.
    Mr. Takeyh. I think the Congressman and I just simply 
disagree on this.
    Mr. Rohrabacher. All right. Well, thank you very much. As I 
get my notes together let us turn to Judge Poe and we will make 
sure.
    Mr. Poe. Thank you, Mr. Chairman. I want to follow up on 
Mr. Filner's comments about Iran. They are the problem, Iran is 
the problem, they are the world's problem. And we got a group 
of Iranian citizens that are in Camp Ashraf that the Iranian 
Government does not like, wants them to go away, disappear from 
the Earth if they had their way. Why is that? Probably because 
they oppose the regime in Iran. And I actually agree with you, 
Mr. Filner, that we should encourage groups that oppose the 
Iranian regime because the best hope for the world is a 
peaceful regime change in Iran and the Iranians have to do it, 
wherever they are in the world. So I just don't know why our 
State Department is so hardheaded about delisting them from the 
MEK but they are.
    So we need to intervene and get them off the MEK list.
    Dr. Mukasey, or Judge Mukasey, which I prefer to call you 
that if that is okay.
    Mr. Filner. He likes General.
    Mr. Poe. Judge Mukasey, the camp if it is moved somewhere 
else in Iraq, what do you think will happen to the residents?
    Mr. Mukasey. That can't possibly--nothing good is the short 
answer. It is not in any way a threat to Iran where it is. 
Certainly nobody from the camp has lobbed anything into Iran 
nor have any of the incursions against the camp from come from 
Iran. They have come from Iraq. So moving them within Iraq 
isn't going to solve any problems. The only thing it will do is 
take them out of sight and thereby allow the Iraqi Government 
at the behest of the Iranians to finish them off. That would be 
a disaster.
    Mr. Poe. What is the relationship right now with Maliki and 
Ahmadinejad?
    Mr. Mukasey. It appears to be a close relationship. The 
Iranians call the shots and Maliki acts in accordance with what 
serves their interest.
    Mr. Poe. Colonel, let me ask you this question since you 
were there. Are there MEK terrorists today?
    Colonel Martin. The MEK are not terrorists today. And if I 
may continue, sir, in May 1972 the MEK leadership was rolled up 
and Rajavi and many others ended up in prison just prior to 
that, and then there was a split within the MEK to a Communist 
Mujahedin Marxist regime and what we see now is the MEK and it 
stayed that way.
    The killings of Colonel Schaeffer, Colonel Turner and 
Lieutenant Colonel Hawkins were accomplished in June and July 
1975, and the Shah's own police interrogated the killers, and 
they said they were part of the Marxist MEK.
    When Rajavi was released from prison, he was able to bring 
the MEK back together outside of the prisons, and that is the 
organization you see today. It is not the MEK that was doing 
those executions. They are not terrorists today, and whatever 
activities they did in the past, if we were to hold that 
against them, then we should have had nothing to do with 
Menachem Begin or Anwar Sadat.
    Mr. Poe. The United States is getting ready to leave Iraq. 
So what happens when we leave?
    Colonel Martin. When we leave?
    Mr. Poe. To the camp.
    Colonel Martin. When we leave, the camp will be 
annihilated.
    Mr. Poe. My last question is open to the panel. So what do 
we do? What do we do? The United States Government, Congress, 
what should we do?
    Mr. Rohrabacher. I think that is such a good question. We 
will have each witness give a 1-minute answer.
    Colonel Martin. My recommendation, sir, is get them 
delisted immediately. We get them out of camp as soon as 
possible, certainly before the end of the year. I am willing to 
get on the plane and go over and help load them up if that is 
what it takes. When I was working with the State Department, we 
tried to get Homeland Security to see can they come to the 
United States. No, because they are a terrorist organization. 
Well, we delist them. Well, they were once a terrorist 
organization even though it was an erroneous delisting. We need 
to get them out of there.
    Mr. Poe. Judge.
    Mr. Mukasey. I agree and if it takes, in order to get 
around Homeland Security objections, a special bill I am sure 
that that is something that is not beyond the power of this 
body. To get some members, I am not suggesting that all of the 
residents of Ashraf be settled here. But certainly if we take 
the lead, taking some folks in, then we can persuade other 
countries to do likewise, but the first step is delisting. If 
they are still listed as a terrorist organization, it becomes 
impossible to move them anyplace else. Delisting is for certain 
the first and essential step.
    Mr. Poe. Dr. Morsch.
    Dr. Morsch. Delisting MEK must happen first. We must 
recommit to fulfilling our promise that we made to the people 
of Ashraf. You know, I appreciate what Mr. Takeyh has said. We 
are talking about decades ago. Even if we want to debate this, 
the U.K. has already debated it, the European Union, they have 
already concluded the debate. There are 3,400 human beings in 
Ashraf and there will be a genocide unless we intervene and do 
something. I think the United States Government needs to take 
responsibility for the solemn promise it made and to fulfill 
it. Whether it is through the U.S. military forces, UNAMI, 
somehow we have to keep our word in this world.
    Mr. Poe. Dr. Takeyh.
    Mr. Takeyh. As I mentioned in my testimony, Congressman, I 
think the U.N. Refugee Commission should hold the 
responsibility for them. If sizable members of the Camp Ashraf 
are actually passport holders or residents of other countries, 
Canada, France or something, I believe under international law 
those countries are obligated to take back their citizens. 
United States would be obligated to do so for those citizens 
abroad in jeopardy, and the remaining of them the United 
Nations should look for a safe haven for them.
    I do agree that they cannot be repatriated to Iran 
certainly, and the situation in Iraq does seem precarious.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Mr. Sherman, you are not a member of the 
subcommittee. We do have members of the subcommittee here. We 
will recognize your contribution and the right to ask questions 
as soon as the final subcommittee member, Mr. Rivera, has his 
time. Mr. Rivera.
    Mr. Rivera. Thank you, Mr. Chairman. I understand from all 
the testimony and all the information and the history that 
certainly the Iraqi Government as it is currently constituted 
does not seem to want the MEK in their country, and I certainly 
understand that under no circumstances can they be sent back to 
Iran. I also certainly understand the physical integrity of the 
residents of the camp must be protected.
    Given all of these different circumstances, I guess my 
first question is what does the MEK, based on all of your 
knowledge--I will start with the judge--what does MEK want 
their fate to be, given all the constraints?
    Mr. Mukasey. I think they simply want to be able to 
function.
    Mr. Rivera. Where?
    Mr. Mukasey. Wherever they can, both within Iran.
    Mr. Rivera. Within Iran?
    Mr. Mukasey. Yes--no, I don't mean sending the Ashraf 
residents back, but they want to have connection to people in 
Iran with whom they have contact so that they can effect regime 
change, but they can't function in that fashion as long as they 
continue to be listed as a terrorist organization.
    Mr. Rivera. In terms of physical residence, I will go to 
the Colonel, what do they want their fate to be?
    Colonel Martin. The first thing would be to continue to 
operate in the Ashraf area unimpeded. However, Madam Parsai has 
specifically told Lieutenant General Gardner and myself, if you 
want us to move, we will move, we will come to the United 
States or another country where they know they can be secure 
and they can be protected. They are willing to leave.
    Mr. Rivera. Well, if that is the case, does anyone--does 
the United States have a plan toward that end to settle them to 
have them leave or does anyone have a plan?
    Colonel Martin. The United States I know for a fact has no 
plan. And we have seen and it was mentioned this morning--this 
afternoon, the State Department does not respond to the calls 
of Congress, they are not responding to the findings of the 
judicial branch. And if I may be so bold, as an American 
warrior I carry a copy of the Constitution with me. The first 
branch our Founding Fathers put down was the legislative 
because it was the most important and it represented the will 
of the people, and then came the executive to carry out that 
will, and then came the judicial to make sure it was being done 
right. We have a sub-element of the executive branch ignoring 
both the legislative and the judicial branch.
    Mr. Rivera. And Dr. Takeyh, maybe you are best qualified to 
answer this, what is Iraq's plan?
    Mr. Takeyh. I am not quite sure if Iraq has a plan to deal 
with them. I think the Iraqi regime seems to be in control of 
ill-disciplined forces who may not be able to control the 
physical integrity of the camp, as you suggest. This is why I 
suggest one of the ways we could go about this is to interview 
individual camp members to see where they go, if they have 
nationalities in Europe and others.
    Mr. Rivera. If we would ask Maliki right now what is your 
plan, what would he respond?
    Mr. Takeyh. I am not quite sure if he has one. I think it 
is a problem that neither Iraqis knows what to do, because it 
endangers their relationship with Iran, it complicates their 
relationship with the United States, and it also complicates 
Maliki's own relationship with the Shia community given the 
fact MEK has been implicated in violence against Iraqi Shias 
during Saddam's tenure.
    Mr. Rivera. Does anyone have a plan, European Union, Arab 
League, anyone have a plan?
    Mr. Mukasey. Not that I am aware of. A particular plan as 
to the residents of Ashraf, not that I am aware of.
    Mr. Takeyh. Congressman, the United Nations does have 
experience in dealing with displaced refugees and they may not 
have a specific plan for residents of Camp Ashraf, but they do 
have experience with individuals.
    Mr. Rivera. What can the United Nations do to implement 
their plan? How can they enforce it?
    Mr. Takeyh. Well, for one thing the camp can come under the 
authority of the United Nations where they would be essentially 
in control of----
    Mr. Rivera. Would Maliki permit that?
    Mr. Takeyh. Well, that is something that United Nations and 
Maliki would negotiate with each other. The other thing they 
can do is look for safe havens for them, which they have more 
experience in doing. The United Nations does run refugee camps 
in a vast number of countries.
    Mr. Rivera. Safe havens also imply that those countries 
provide assent to the camp residents going into--have any 
countries expressed any interest?
    Mr. Takeyh. Some of them who are dual nationals would have 
to be taken back from their countries, if they are nationals of 
Canada----
    Mr. Rivera. Have any countries expressed interest in taking 
back----
    Mr. Takeyh. The dual nationals is a question of law, they 
have to be taken back by their original----
    Mr. Rivera. But has any country publicly expressed 
interest?
    Mr. Takeyh. I think some European countries have.
    Mr. Rivera. Such as?
    Mr. Takeyh. Sweden and so forth.
    Mr. Rivera. Sweden?
    Mr. Takeyh. Yeah.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Rohrabacher. The chairman will when everyone else has 
had their time questioning, I will begin my questioning. I will 
now recognize Mr. Brad Sherman, who has also been very active 
on this issue but not necessarily on this subcommittee.
    Mr. Sherman. I thank the chairman for his patience. 
Practical question or two to Mr. Attorney General. If someone 
happens to have a visa to go to Sweden, are they allowed to 
leave Camp Ashraf and go there?
    Mr. Mukasey. As far as I am aware, they are.
    Mr. Sherman. And would the residents of Camp Ashraf be safe 
anywhere in Iraq, say in a Sunni part of that country, or is it 
critical that we get them out? I see the Colonel with an 
answer.
    Colonel Martin. I will gladly answer that question.
    Mr. Sherman. Not to mention obviously any moving of them 
would be dangerous and would have to be carried out, I think, 
by U.S. forces, but if they arrived in some other part of Iraq 
would they be any safer than they are now?
    Colonel Martin. I agree with the young lady that was in the 
video in the very front, they could not be safe.
    Mr. Sherman. Either there has to be U.S. or U.N. protection 
of Camp Ashraf or, much better, the people have got to be 
outside of both Iran and Iraq?
    Colonel Martin. That is correct. And if I may add to this, 
we had approximately 195 defectors that was being protected at 
the American camp. Working with Barzani, we were able to get 
them released into Kurdistan and their fate was a very terrible 
one, and they ended coming up and asking for financial help 
from the MEK so that they could try to move on with their 
lives.
    So the answer as proven by evidence of that happening to 
the defectors is nowhere in Iraq is safe.
    Mr. Sherman. Dr. Takeyh, you seem to be the only person 
here who thinks it might be okay for the MEK to stay on the 
terrorist list. Are you aware of any terrorist action 
attributed to the MEK after the last terrorist action 
attributed to the IRA?
    Mr. Takeyh. In terms of in Iraq itself there is allegations 
of MEK being part of Saddam's regime against Shia residents 
before their disarmament, throughout the tenure of Saddam. 
Those are the allegations.
    Mr. Sherman. Are those acts classified as acts of terrorism 
by the State Department and are there any specific acts that 
are attributed?
    Mr. Takeyh. Well, there is certainly the contention of the 
Iraqi Government that the MEK membership during Saddam 
Hussein's era was acting as his praetorian guard.
    Mr. Sherman. Well, what about the praetorian guard of 
Saddam Hussein and his other--I mean is everyone who served in 
the Iraqi Army considered a terrorist by the United States?
    Mr. Takeyh. I am not suggesting that, Congressman. I am 
just suggesting that they were used in specific campaigns, and 
particularly against the Shia population in the south in 1991.
    Mr. Sherman. Okay. Now the MEK was designated in 1997 but 
every act of terrorism that you have described in your 
statement, at least when I was in this room, were a long time 
before then. Were they designated in 1997 because that was part 
of an olive branch to Tehran or because the State Department 
finally got around to looking at the actions taken in the 1980s 
and 1970s?
    Mr. Takeyh. I wasn't in the State Department in 1997 when 
the designation took place. I am not quite certain of the 
reasoning to do so at that time. I am sure there are 
representatives of the State Department at that time or 
subsequently can respond to your question.
    Mr. Sherman. What I have been told is again and again that 
the MEK is on that list as an olive branch to Tehran. It is not 
working out real well.
    Colonel, do you have any insight as to why action was taken 
of all times in 1997, decades after the most offensive actions 
taken by the MEK?
    Colonel Martin. Sometimes when you have enemies you have to 
compliment them for a great skill. Iran beautifully portrayed 
itself as going to a more moderate government that was going to 
open up to the West. There is nothing more moderate because the 
Supreme Council would not have allowed, we saw what happened in 
2009 when they did have a chance for a moderate President. So 
they presented themselves as moderate and in turn we gave them 
the olive branch that you mentioned. Then when it was 
convenient for Tehran, then next thing you know Ahmadinejad is 
now in power.
    Mr. Sherman. So we twisted our semi-judicial or 
administrative determination for political reasons and in this 
case for the wrong political reasons?
    Mr. Mukasey. I totally agree.
    Mr. Sherman. Does anyone else on the panel have a comment?
    I yield back.
    Mr. Rohrabacher. Thank you very much. We have Mr. Carnahan 
with us and you may proceed, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and thank you to the 
panel. I apologize for missing some of your testimony. I had to 
step out for just a minute. I wanted to come back and start 
with Dr. Takeyh. And given that the PMOI MEK received safe 
harbor under Saddam Hussein and helped Iraq fight against Iran 
during the Iran-Iraq war in the eighties how does this group 
hold enough legitimacy in Iran to be a viable opposition to the 
current regime, particularly considering the nature of the 
culture? Could you talk about that?
    Mr. Takeyh. I don't think it is a credible opposition 
movement within Iran as perceived by credible Iranian 
opposition movements, such as the Green Movement 
representative, which has forsworn any relationship with MEK 
and have denounced it at every turn. I mean you see that in a 
secular opposition in Iran and its umbrella organization that 
comes under the auspices of the Green Movement.
    Mr. Carnahan. We have limited means of engaging the Iranian 
people now. How would U.S. support for the MEK affect the 
Iranian popular opinion in the U.S. and, more broadly, how are 
there better ways that we could engage with the Iranian people 
and the Iranian opposition?
    Mr. Takeyh. I think the task at hand is how does the United 
States enable, empower the Green Movement in its attempt to 
create a democratic society in Iran and try to liberalize the 
Iranian Government and in due course displace the radical 
regime that is in power. That is the key challenge we have 
today. We have a lot of experience with that and are in a Cold 
War with our assistance to solidarity in Poland, with our 
assistance to other Eastern European opposition movements and 
their efforts against Communist governments in the Eastern 
Bloc. I think some of those lessons can be used to assist the 
indigenous, viable, legitimate opposition within Iran, which 
comes under the auspices of the Green Movement.
    Mr. Carnahan. Thank you, and I just wanted to open this up 
for the rest of the panel to address the issue of the 
practicality of relocation as an option. Can that work, does 
that work and what are your thoughts on that? Let me start with 
General Mukasey and we will go down the line.
    Mr. Mukasey. I think if people are going to be killed where 
they are, then relocation is the only practical alternative, to 
respond directly to your question. Also to comment on something 
that Dr. Takeyh just said, there is as far as I know no, zero, 
no example of any situation in which help to a dissident group 
in a totalitarian country was successful. Poland was not a 
totalitarian country at the time we helped solidarity. That 
was--you try to help an organization that is in a totalitarian 
country, there is only one way to get rid of a totalitarian 
government, and that is to overthrow it.
    Mr. Carnahan. Thank you, Colonel.
    Colonel Martin. The Mujahedin needs to be moved completely 
out of Iraq and not to Iran.
    Mr. Carnahan. What else would that look like in your 
opinion?
    Colonel Martin. It would give the appearance that we are 
bringing them under an umbrella and keeping them operational as 
an organization, but the reality of it, they certainly would 
not be a military force because the average age is now over 40 
years old. They are a very valuable intelligence resource, and 
that could be used in the future, but if we would bring them in 
and pretend that we are training them up, it is just not 
feasible.
    Mr. Carnahan. And Mr. Morsch, Dr. Morsch, sorry.
    Dr. Morsch. Ashraf is probably the safest place for them 
right now. They are very close to Balad, Camp Anaconda, which 
is one of the largest U.S. Bases in Iraq. They are very close 
to Baghdad, relatively close to Baghdad. It is an area that is 
very scrutinized. So to move them anywhere else within Iraq it 
would certainly be less safe and more dangerous.
    Mr. Carnahan. Thank you all very much. I yield back.
    Mr. Rohrabacher. Ms. Sheila Jackson Lee is not a member of 
this subcommittee, I believe, but she has interest in this 
particular issue and, as I say, as chairman I will be the last 
person to ask questions today, but I think I have several 
important questions to ask. So you may proceed, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Chairman, again in your absence I 
thank you for your kindness and indulgence and also allow me to 
recognize both you and the ranking member on your astuteness on 
issues in dealing with human rights and fairness and simple 
practicality on questions that seem to be unanswerable but seem 
to be common sense. I guess the question is how do you allow 
persons to be murdered and the guns used against those persons 
being funded by the United States of America. It continues to 
baffle me.
    Before I came into the room, and as I acknowledge again Mr. 
Carnahan and my colleague Mr. Filner, we have both experienced 
over the years enough indictment for our concern about the 
individuals who are in a membership by the name of MEK, but 
more importantly the brutality against several human beings. It 
amazes me that again blood has been shed, treasure of the 
United States has died in Iraq so that Iraqis might live free, 
might have the blessings of democracy and choice of that 
democracy. And yet we are covered with the blood of others at 
the hands of, as we have come to understand the allegations, of 
Iraqi soldiers.
    Judge Mukasey, help me with--you have 7 pages that I will 
read more extensively. Would you help me with laws that you say 
that we are not enforcing? Give me those tools. You said we are 
not enforcing certain laws that we need to do. Would you repeat 
those again for me, please?
    Mr. Mukasey. I think what is often described in shorthand 
as the Leahy amendment, which is actually two statutory 
provisions, one of which relates to use of foreign aid, the 
second of which relates to use of military aid, and bars the 
use of such aid when it goes to military organizations that 
have committed human rights violations unless there is a 
finding in the case of military, unless there is a finding by 
the Secretary of Defense of overriding necessity. I don't know 
of any such finding here. So the lay Leahy amendment is, it 
seems to me, right on the nose. I think Senator Leahy was the 
author of that amendment.
    Ms. Jackson Lee. I have not looked at your bio, I can't say 
in certainty whether you were in the military or not in the 
military, but I know you have been both an outstanding jurist 
and the Attorney General. Would you suggest that the actions of 
this past incident counted for--do you believe it is well 
documented that the violence was perpetrated by soldiers that 
were in Iraqi uniforms or Iraqis with guns that resulted in the 
deaths of the 30-plus individuals?
    Mr. Mukasey. There is no doubt of it. We have identified, 
as I understand it, the precise units that participated in this 
operation. So that is relatively easy to come by.
    Ms. Jackson Lee. Dr. Morsch, can you document or suggest 
any reason why tanks and commandos and guns were approaching 
that camp? Was there any national security reason?
    Dr. Morsch. No reason other than I believe the Maliki I 
government is planning to exterminate the people of Ashraf and 
this is part of a long series of actions that are probably 
going to occur until they are ultimately victorious.
    Ms. Jackson Lee. Does that sound like to you a conspiracy 
with Iran, a country who has potential nuclear capacity, 
threatening the world, and the leader of Iraq is now in cahoots 
to attack individuals who cannot defend themselves, or at least 
defend themselves against tanks.
    Dr. Morsch. Congresswoman, I arrived in Iraq in January 
2004, shortly after the Iraq war began. And so from my first 
days on the ground I saw the influence of Iran within Iraq 
because Ashraf is close to that border. It has been there ever 
since, it is growing, it is obvious, it is intentional, and in 
fact in 2004 I made the comment to some of my fellow officers 
Iran--we are basically going to come in here and take out 
Saddam, create a power vacuum and create a greater Tehran right 
here in Iraq. It is happening right before our eyes.
    Ms. Jackson Lee. Let me just conclude, Mr. Chairman, I see 
the lights. Thank you very much.
    Let me conclude by saying my outrage cannot be expressed 
and again I ask our Government, which I have great respect for, 
to immediately denounce and ask for a ceasing of the 
collaboration between the Iraqi Government of which we are 
funding and Iran, which has become the world's enemy to destroy 
and kill innocent persons and whatever laws that we have, 
Chairman Rohrabacher, that we can use, the Leahy amendment, 
should be implemented immediately.
    I yield back.
    Mr. Rohrabacher. Thank you very much, Ms. Jackson Lee, and 
to all of our other members who have participated today. I 
again apologize that earlier I had to leave. I did actually go 
from here straight to the floor to deal with an amendment that 
would defund our friends in Pakistan which has something to do 
with some of the issues we are discussing today, and so is 
vitally important. However, I am very pleased we were able it 
get the questioning in from those of us here able to spend the 
entire time with us. Let me just ask you a few questions here.
    Dr. Morsch, you were in Camp Ashraf in what year?
    Dr. Morsch. 2004.
    Mr. Rohrabacher. 2004. Now in 2004, correct me if I am 
wrong, the FBI actually went to Camp Ashraf and interviewed all 
of the residents of Camp Ashraf to find out if any of them were 
indeed terrorists; is that correct?
    Dr. Morsch. Yes, Mr. Chairman.
    Mr. Rohrabacher. Are you aware of what the FBI determined 
by their questioning of all of--each and every one of the 
people there at Camp Ashraf?
    Dr. Morsch. Yes, sir. I was there during the entire 
investigation phase and from the beginning to the end all 34 or 
at that time maybe a few more were interrogated. I did not see 
the official report of the FBI but I talked to the agents and 
interviewers on a daily basis as they came back from spending 
the day in these interviews. And they expressed tremendous 
frustration that they had come to Ashraf with particular people 
they thought they were going to be able to take back to the 
U.S. To prosecute for various nefarious criminal or terrorist 
activities. And day by day they were not able to find any 
evidence on any illegal criminal or terrorist activities and 
finally left empty handed, as they said, and were quite 
disappointed.
    Mr. Filner. Mr. Chairman, I just want to ask----
    Mr. Rohrabacher. Excuse me, I have the floor now.
    Mr. Filner. I want to make sure he meant 3,400.
    Mr. Rohrabacher. I will be happy to let you do this after 
my questions.
    Mr. Filner. I just wanted a question of fact.
    Mr. Rohrabacher. Thank you, Mr. Filner.
    To the point that was just made, Dr. Takeyh, have you seen 
this FBI record?
    Mr. Takeyh. I have not.
    Mr. Rohrabacher. And you question that the FBI was 
conducting a proper investigation?
    Mr. Takeyh. I have no insight into the investigation.
    Mr. Rohrabacher. Okay. And when you have expressed your 
concern about the MEK since 19---well 2004, so that's 6 years, 
you have been expressing concern that the MEK might, you know, 
be worthy of designating a terrorist organization but you have 
not bothered to go and find the FBI report that went in and 
investigated that specifically.
    Mr. Takeyh. I am not sure if that FBI report is actually 
for public consumption, nor have I been intensely engaged in 
the MEK terrorism debate, as you suggest, in the past 6 years.
    Mr. Rohrabacher. So you are not sure whether the FBI report 
is for public consumption?
    Mr. Takeyh. Congressman, I simply cannot comment on a 
report I haven't seen.
    Mr. Rohrabacher. I understand, but I guess what the 
question is you are a Ph.D.?
    Mr. Takeyh. Uh-huh.
    Mr. Rohrabacher. When these people are talking, as you 
might say, a credible witness on issues, especially when 
someone has a scholarly background, a Ph.D., that you would 
expect they would go to all sources, especially ones that were 
directly related to investigating a specific charge, but you 
did not go to----
    Mr. Takeyh. I don't think----
    Mr. Rohrabacher. You didn't try to seek out the FBI report?
    Mr. Takeyh. I don't think that FBI report was publicly 
available. I believe it is under classification.
    Mr. Rohrabacher. The operative words I think which means 
you did not.
    Mr. Takeyh. I would be happy to look at the report.
    Mr. Rohrabacher. Usually if one was to be someone to argue 
a case they would at least take the time to see if something 
was available or not. Dr.----
    Mr. Takeyh. Ordinarily, Congressman, FBI reports of this 
nature are not available and my colleague has himself said he 
hasn't seen the report.
    Mr. Rohrabacher. Okay, well, I am not sure whether the FBI 
report is available or if the conclusion was available. My 
guess is that at the very least the conclusion that the FBI 
made was made available and that has----
    Mr. Takeyh. I am not sure if that is correct.
    Mr. Rohrabacher. Is it your understanding that the FBI 
concluded, that is your testimony today, that the charge that 
these people were still a terrorist organization was debunked; 
is that correct?
    Dr. Morsch. Yes, sir. That was the point of the 
investigation and again they didn't find anything. This is my 
unofficial discussion with numerous members of the OGA 
personnel who were there on site for the several months of the 
investigation.
    Mr. Rohrabacher. When you are suggesting that all 3,400 
people there were questioned by the FBI.
    Dr. Morsch. All of them questioned by the FBI and or other 
representatives that had arrived, perhaps 100 outside 
personnel, a very efficient, organized interrogation process.
    Mr. Rohrabacher. Now, let me just note that I have been 
involved politically since I was in my teens and I have seen 
different organizations evolve into different things and my 
understanding of the MEK is that it had a Marxist beginning and 
that there were questions about--that I would have about an 
organization that was involved in the type of activity that was 
at the same time espousing some sort of Marxist ideology. 
Apparently that was a long time ago and there seems to be a lot 
of evidence that MEK evolved out of that position. I did not 
get involved in this issue for a long time because many people 
in Iran, many of the Iranian exiled community still remembered 
the MEK as an organization that was involved in assassinating 
members of the Shah's government. By the way, not to say that 
the Shah was not a dictatorship as well and when people are 
struggling for democracy against a dictatorship usually you 
have to use force, but that still would not necessarily say 
that what the MEK was doing was acceptable because I understand 
they were targeting unarmed officials who worked for the Shah 
and worked for his administration.
    Is there some reason, Mr. Takeyh, that we have to believe 
that the MEK is still after all of these years and all of these 
individuals have been involved with them that that they are 
still involved in some sort of terrorist operation?
    Mr. Takeyh. The MEK use of violence did not stop with its 
opposition to the Shah's regime. It continued in the aftermath 
and has continued throughout the aftermath of past 30 years, 
and it has continued against Iranian civilians within Iran and 
Iraqis within Iraq once they relocated there. So it is a long 
history of violence.
    Mr. Rohrabacher. Let me just note for you. This is a 
territory that is filled with violence, whether you are talking 
about the Shah or you are talking about the Mullah regime, you 
are talking about incredible violence. I wouldn't be surprised 
if there was any organization that existed that wasn't in some 
way involved with the use of force at least to protect 
themselves.
    Mr. Takeyh. Oh, I disagree with that. Within Iran there are 
many opposition movements such as the Green Movement that 
explicitly rejects violence for civil disobedience and protest 
and demonstrations.
    Mr. Rohrabacher. Or like the American Revolution where we--
oh, wait a minute, we did use violence there, didn't we? Let me 
suggest that I would ask our friends in the audience not to 
applaud, or to be fair to all of our witnesses.
    You have got a lot of courage, thank you for being here, I 
appreciate your being here today, knowing that you are going to 
get some very poignant questions.
    So your suggestion is the MEK today has been branded as 
unacceptable by the leaders of the Green Movement in Iran.
    Mr. Takeyh. Yes, that is right.
    Mr. Rohrabacher. Is that the case? Does anyone know about 
that detail? Agree? Disagree?
    Colonel Martin. I am not sure if it is going to be in 
agreement or disagreement. But I remember in 2009, when all the 
riots and everything were going on, the MEK was very, very 
quiet, and they were not involved in any of those activities. 
So to say they have been accepted by the Green Movement, I 
don't believe so. I do believe the National Council of the 
Resistance of Iran, Maryam Rajavi's other organization, is very 
much accepting of it.
    Mr. Rohrabacher. Let us note that the Green Movement has, I 
believe--and please correct me if I am wrong--has dissociated 
itself from violence as a means of achieving its goals.
    But also let us note that just because some--that does not 
mean that an opposition group to a despicable dictatorial 
regime that uses torture and violence against its people, that 
anyone who chooses to resist it in a violent fashion doesn't 
make them right or wrong. We are not going to get the Mullahs 
to give up power simply by proving that they are thugs, by 
letting them beat people up and suppress people at will.
    In fact, I will have to admit one of the things that 
attracts me to this movement is that it is willing to fight for 
the rights of the people of Iran against a very oppressive 
regime that is willing to kill people to stay in power.
    But if the Green Movement has not accepted that and that 
the use of force has been something that the MEK is willing to 
do and it separates it from the Green Movement, let us accept 
that. That has been a reality. That doesn't necessarily make it 
the right position of the United States to back just pacifists 
in the world. Backing people who fight against tyranny is also 
something the United States could be doing.
    Colonel, you seemed like you are anxious to say something.
    Colonel Martin. I thank you, sir.
    One point that needs to be pointed out, in the membership 
of the MEK inside Camp Ashraf there are only two people that 
were involved in the organization in the early 1970s, and I am 
holding their names for their own safety. One was in prison 
with Rajavi, and the other one I know personally, and he is a 
good friend. I can honestly say neither one of those two people 
were involved.
    Mr. Rohrabacher. Well, it is very difficult for me, after 
seeing the video that we had, which is very clear evidence of a 
massacre of unarmed people, to then in some way focus attention 
on perhaps somewhere they might have people in their 
organization that believe in violence in order to overthrow the 
Mullah regime in Iran. And that is something that in some way 
should turn us off toward that organization.
    About the massacre, how do we feel about whether this 
terrorist designation, which it seems impossible for the United 
States, as compared to all of our European allies, to get rid 
of this designation, did it play a significant role in the 
decision of whoever it was to commit this massacre? Is there 
any reason for us to believe that if they were not designated a 
terrorist organization that the person who ordered them to go 
in with those troops and shoot down unarmed civilians might not 
have issued that order?
    Colonel?
    Colonel Martin. I will lead out on that one, sir.
    I think yes. Because the State Department has been 
basically moving at the pace of a startled snail. And when you 
see the Maliki government doing things wrong--and to include 
the attack 2 years ago--and our State Department and our 
Government does nothing about it but we keep them on the 
terrorist list, claiming they are a bunch of bad people, we are 
giving justification. And then when the attack is over, we also 
do nothing about it.
    We remember the pictures of pictures of Abu Ghraib. This, 
Abu Ghraib, was minor compared to what happened at Camp Ashraf. 
It was very hideous, and it was very wrong. But all of a sudden 
our whole Nation was enflamed, and the world was enflamed, and 
it was a recruiting tool for the al Qaeda. But then we see 
blatant murder and then we look the other way. That just 
encourages more.
    Mr. Rohrabacher. The point is very well made, Colonel.
    I think that there are consequences to political 
designations, and consequences in the actions of the people who 
order them and the people who are decision makers in other 
countries, which leads us to Prime Minister Maliki. Does this 
slaughter that we have seen of the people in Camp Ashraf 
indicate that the government now of Prime Minister Maliki is 
perhaps in a subservient position to the Iranian Mullah regime?
    Colonel Martin. If I may again, sir, I see him subservient 
to three different elements. One is the Iranian regime, two is 
Hakim, and three is Muqtada al-Sadr.
    And we saw this even in the execution of Saddam. Muqtada 
al-Sadr was the one who said to his followers, Saddam will not 
live to see the light of a new year. And then suddenly Task 
Force 134 gets a call from Maliki himself saying, I want Saddam 
turned over tomorrow. And you remember the spectacle of that.
    Maliki is taking orders from three different elements. And, 
as you recall, Allawi won the election but Maliki would not 
follow the constitution and work with Allawi. And, as a result, 
Allawi won the election but he lost the government.
    Mr. Rohrabacher. Well the Mullah regime obviously--let me 
just say, Dr. Takeyh, you have suggested that actually the MEK 
is not a major force in this part of the world, that in Iraq 
they are not considered to be an important player----
    Mr. Takeyh. In Iraq?
    Mr. Rohrabacher. Excuse me. In Iran. They are not a major 
part of the resistance or the opposition. Why would the Mullah 
regime be so concerned about them if they weren't a player?
    Mr. Takeyh. Oh, the paranoid politics of the Islamic 
Republic are beyond my comprehension. They are concerned about 
every expression of dissent. That is what totalitarian 
governments are like. They try to squash any form of dissent. 
But in terms of array of forces that could displace their 
current regime, I don't think MEK would play a role in that.
    Mr. Rohrabacher. I am not sure what role MEK will play. I 
am not sure what their position is in terms of the people of 
Iran and the Green Movement, et cetera, as well as the Mullahs. 
But it does seem to be clear that Maliki, the Prime Minister of 
Iraq, thought that he was doing a favor for his buddies in 
Tehran in committing this massacre.
    Let's go to a little bit about the relocation and such. Are 
all of you suggesting then that relocation in the United States 
is what you think will probably be the end result of this?
    Mr. Takeyh. I suggest in my testimony it should come under 
the auspices of the United Nations Refugee Commission.
    Mr. Rohrabacher. Right. But the United Nations is located 
in New York, I think.
    Mr. Takeyh. Well, it has offices all over the place.
    Mr. Rohrabacher. Maybe we could house them in the U.N. in 
New York. Yes.
    Dr. Morsch. Mr. Chairman, I think that the United States 
should be prepared to take all or the majority of them. But I 
do think that many other countries, as we are seeing in Europe, 
who are unilaterally taking actions in Libya and other places 
that they think are in the best interests on the world stage, I 
believe there is tremendous momentum, critical mass building. 
And I believe if the United States would take a lead--or the 
U.N.--I believe we would find a host of countries that would be 
willing to take the members of Ashraf.
    Mr. Rohrabacher. Colonel Martin certainly has made that 
point, that we have got citizens from various countries there. 
And the witness that we had at our briefing prior to the 
hearing today was a young lady from Canada. And maybe, Doctor, 
you could let me know, how many people there at Camp Ashraf 
would you suggest have such ties? What percentage of that 3,400 
have ties to elsewhere?
    Dr. Morsch. While I was there, I did not consider whether 
they were citizens or whether they had Green Cards or visas. 
But I was impressed with the number of people who had received 
graduate and postgraduate degrees in developed countries, in 
Europe and in the United States and Canada. I mean, many, many, 
many hundreds of the residents were very well educated, spoke 
very good English, and obviously had ties with the West.
    If you would poll the people behind me, my guess is half of 
them have family members today in Ashraf. And as I have 
traveled the world and met Iranians from throughout the world, 
there are a lot of families that are following their loved ones 
in Ashraf, and I have to assume there is some type of legal 
status tied to that.
    Mr. Rohrabacher. Do the other two witnesses agree with this 
assessment? Maybe half the people in Camp Ashraf have families 
that could in some way take care of them if they are forced out 
of Ashraf?
    Colonel Martin. I would have to agree, sir.
    I would have to make one point to an earlier comment. If we 
put them in the United Nations building, we would have to take 
them out once a year when Ahmadinijad comes for his annual 
rant.
    Mr. Rohrabacher. Thanks.
    Mr. Mukasey. I should point out that the strong statements 
from the European Parliament introduced actually a European 
plan to first provide security at Ashraf via UNAMI, a United 
Nations entity, with the help of the U.S. military and then, at 
the same time, with the EU and the U.S. to resettle residents 
in Europe and the U.S. But that when the U.S. Ambassador to 
Iraq, Ambassador Jeffrey, says that he supports the idea of 
resettling these folks within Iraq, that is not helpful.
    Mr. Rohrabacher. Well, let's just note that my 
observation--personal observation is that the people involved 
in this movement are highly educated people and highly 
motivated and have a great sense of unity. And while the United 
States has been in Iraq--which I will close with a closing 
statement about the wisdom of us going into Iraq in the first 
place, considering what this incident is telling us about the 
Iraqi Government--but as long as we were there, we could make 
promises, and we did make promises to the people of Camp 
Ashraf. And the people of Camp Ashraf kept their word to us, 
and they gave us intelligence information and disarmed and were 
as sincere in their pledges to us as we were to them.
    However, the reality is the United States is leaving Iraq 
within 2 years. I believe the American presence in Iraq will be 
probably nothing. I mean, we will probably not have combat 
troops in Iraq. That means we will no longer be able to protect 
these individuals with the promise of protection from the 
United States. I would hope that we can work together to try to 
make sure that these individuals have an alternative that gives 
them safety and will not--but let me tell you what is 
unfortunate about this is that the closing of Camp Ashraf--and 
I disagree with you, Dr. Takeyh, on this--and that is, I think 
the Mullah regime does see the MEK and does know they are 
there. That is why this massacre took place. And I think that 
disbanding Camp Ashraf and just scurrying away, retreating from 
the border of Iran, will be viewed by the Mullahs not as--oh, 
look how sincere the Americans are being--but will be looked at 
as a retreat. And, basically, it will encourage the 
dictatorship and the Mullahs to even have a tougher grip on 
their own people because of the fact that we now are taking 
3,400 souls who are standing against their dictatorship and we 
are disbanding them and we are demobilizing them.
    And that is unfortunate. That is an unfortunate reality. 
But the reality is, is that we can no longer protect them once 
we are out of the country.
    But I think that we should be proud as when we were there 
in Iraq that we didn't send the wrong message to the Mullahs 
that we were cowards and that we didn't believe that only 
pacifists can bring down the Mullah regime. It won't be just 
pacifism. It will be people with courage and people who stand 
up, people who have their own motives, whether they have their 
own religious group or their own social group.
    There were groups of patriots during the American 
Revolution that brought down the British control of America. 
And they all weren't just of one mind. Some of them, in fact, 
were religious fanatics. Some were Christian cults that lived 
in the United States who supported us. And that is our history. 
But they had their rights, and they were willing to fight for 
them.
    So let me just leave with one last thought, and I want to 
give you a chance to express a last thought, and then I want to 
express maybe 1 minute worth of thought.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman.
    And, again, I just want to personally say to the chairman 
for his work on this issue, his leadership, and leading our 
delegation there, demanding answers to tough questions, both 
from the Maliki government but also from our own Government in 
terms of how we go forward, bring people to justice, and find 
out how we can go forward to find a safe haven for the people 
there. So, again, thank you and thank you to the witnesses who 
are bringing your expertise to bear here today.
    Mr. Rohrabacher. All right. And I will finish with this.
    Number one, there will be a list of questions offered to 
the State Department concerning the massacre at Camp Ashraf, 
including when they knew about what and who gave orders for our 
military to leave, et cetera, et cetera, and I detail some of 
those questions. There will be official lists of questions from 
this committee to the State Department. And we will expect an 
answer. If we do not get an answer, I will proceed with making 
sure that we have a follow-up hearing until those questions are 
answered.
    And, finally, let me just leave with this thought: The 
invasion and the liberation, you might say, of Iraq was 
something that I supported. I mean, I trusted President Bush 
that he knew what he was doing, that he had a good grip on how 
to make sure that we got that job done, and that it was 
necessary, that it was absolutely necessary for us to go into 
that country with heavy armored divisions in such a big way.
    I was wrong. I was wrong. I was wrong to put my trust in 
his judgment. I worked for the President of the United States, 
and I assumed that he had a similar responsible position toward 
the American people and sending the American military, as did 
the President who I worked for, which was Ronald Reagan. And 
that was not the case.
    The United States has paid a dear price, probably $1 
trillion of wealth, which may have been one of the major 
factors in kicking us into this horrible economic crisis that 
we are on the edge of today, as well as thousands and thousands 
of our young people dead and many tens of thousands more who 
lost parts of their bodies or their faces were blown off or 
they now live in misery because their home lives are destroyed. 
And that is the price we Americans have paid.
    And Americans don't mind fighting for freedom. Americans 
don't. That is our job. We come from every race, every 
religion, and every ethnic group. So we can show the world 
there is a better way.
    But the ingratitude that I have found in our visit to Iraq 
was overwhelming. The people of Iraq--at least those in their 
government, the government of Prime Minister Maliki--showed 
absolutely no gratitude and in fact were contemptuous of the 
price that the Americans have paid to dislodge the Saddam 
Hussein dictatorship.
    Let us note that Saddam Hussein murdered hundreds of 
thousands of his people, many more than have been killed in 
that 7-year, 8-year period since Americans dislodged Saddam 
Hussein. And many of the people being killed in Iraq are being 
killed by their fellow Iraqis. And here we just jumped in there 
and have paid such a heavy price.
    Well, we Americans think it is okay as long as--you know, 
as I say, we have got a place in the world. We have got to show 
the world there is a better way where people can get along and 
not explode car bombs off because they worship God in a 
different way. And that is what we are all about.
    I think that the members of the MEK that I have met here in 
the United States exemplify a commitment to freedom. And no 
matter how activists or what their organization did in the 
past, they are committed to freedom and democracy today. And 
certainly the slaughter there at that camp, we should have 
taken more caution and more care to see that that did not 
happen. And I think we all believe that.
    So, with that said, when we make decisions in the future 
about what countries we are going to commit to and what we are 
going to jump into in a big way, we are going to have a lot of 
second thoughts about that. Americans are going to have a lot 
of second thoughts about that. In the meantime, we are going to 
do our best to live to what our traditions and our values are 
all about as a people.
    I want to thank each and every one of you. Doctor, you were 
courageous to come here knowing that you were going to get the 
hardest questions. But I want to thank our other witnesses as 
well, because you have all contributed to a better 
understanding of this issue that has led to this horrible 
massacre. Let's just make sure that no more of these people who 
are friends of freedom are murdered by the Mullah regime and 
Tehran or by their stooges who now control the Government of 
Iraq.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]
                                     

                                     



















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Material submitted for the record by Colonel Wes Martin, USA (retired) 
                 (former Base Commander of Camp Ashraf)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Material submitted for the record by Gary Morsch, M.D. (former 
              Commander of Forward Operation Base Ashraf)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Note: Additional papers by Mr. Schneebaum, submitted for the 
record by Dr. Morsch, are not reprinted here but are available in 
committee records.]

                                 <all>

</pre></body></html>
